<html>
<title> - WOMEN AS AGENTS OF CHANGE: ADVANCING THE ROLE OF WOMEN IN POLITICS AND CIVIL SOCIETY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  WOMEN AS AGENTS OF CHANGE: ADVANCING
                   THE ROLE OF WOMEN IN POLITICS AND
                             CIVIL SOCIETY
=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2010

                               __________

                           Serial No. 111-97

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
56-877 PDF                    WASHINGTON: 2010
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>  






                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
VACANT<greek-l>Until 6/9/10 deg.
              Jerry Haldeman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Melanne Verveer, Ambassador-at-Large for Global 
  Women's Issues, Office of Global Women's Issues, U.S. 
  Department of State............................................    10
The Honorable Esther Brimmer, Assistant Secretary, Bureau of 
  International Organization Affairs, U.S. Department of State...    19
Mr. Kenneth Wollack, President, National Democratic Institute....    44
The Honorable Swanee Hunt, Chair, Institute for Inclusive 
  Security (Former U.S. Ambassador to Austria)...................    55
Ms. Judy Van Rest, Executive Vice President, The International 
  Republican Institute...........................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     4
The Honorable Melanne Verveer: Prepared statement................    12
The Honorable Esther Brimmer: Prepared statement.................    21
Mr. Kenneth Wollack: Prepared statement..........................    47
The Honorable Swanee Hunt: Prepared statement....................    56
Ms. Judy Van Rest: Prepared statement............................    64

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77
Responses from the Honorable Esther Brimmer to questions 
  submitted for the record by the Honorable Russ Carnahan........    79
The Honorable Russ Carnahan: Material submitted for the record...    83
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................   113


WOMEN AS AGENTS OF CHANGE: ADVANCING THE ROLE OF WOMEN IN POLITICS AND 
                             CIVIL SOCIETY

                              ----------                              


                        WEDNESDAY, JUNE 9, 2010

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:07 p.m., in 
room 2172, Rayburn House Office Building, Hon. Russ Carnahan 
(chairman of the subcommittee) presiding.
    Mr. Carnahan. Good afternoon and welcome to the 
Subcommittee on International Organizations, Human Rights and 
Oversight. We are here for a committee hearing today on the 
subject of Women as Agents of Change: Advancing the Role of 
Women in Politics and Civil Society.
    I am going to make a brief opening statement. Then we want 
to get right to our first panel. We do expect that we may be 
interrupted by votes some time in the next hour, so we will 
adjust accordingly and appreciate all of your patience.
    In the last decade, we have seen a meaningful shift in 
momentum surrounding the need for gender equality and 
especially a growing call for women's voices in the decision-
making process from the international arena to local 
communities around the world. Nonetheless, despite increased 
momentum around women's empowerment and political 
participation, there is still much more progress to be made.
    Today, while women account for over half of the population, 
they occupy less than 19 percent of the seats in national 
parliaments, according to the IPU. In many countries steps have 
been taken to increase the number of women in government and 
political life, such as constitutional reform mandating quotas 
at the national level and the introduction of programs that 
help female candidates win election to political offices.
    Critics claim this doesn't do enough to give women equal 
voice in decision-making and meaningfully institutionalized 
gender equality. It levels the playing field but doesn't 
guarantee greater policy attention or social change.
    It is imperative to increase not just the numbers but also 
the effectiveness of women in political and civil leadership 
roles. This includes ensuring that women elected to offices and 
appointed to ministries have real power to enact legal reforms 
that address the needs of women, children, and families, which 
are inseparable from the needs of the community as a whole. It 
also includes ensuring increased training and education for men 
and boys to work with women as equal partners and change 
negative sociocultural stereotypes.
    Women face particular challenges, such as equal access to 
health care, education, economic opportunities, violence, and 
lack of legal rights in the judicial process. It has been amply 
documented that they are also disproportionately affected by 
problems such as climate change and conflict.
    These unfortunate realities have put women to the test as 
keen innovators and leaders. Women bring an important 
perspective to policy and play instrumental roles in 
reconstruction and peace-building efforts. Moreover, equality 
of gender representation is shown to increase transparent and 
democratic governance. These are benefits the U.S. cannot 
afford to ignore in an increasingly challenging global 
environment.
    Women in Northern Ireland were essential in initiating the 
peace process. Women in Rwanda rebuilt their country after the 
horrific genocide. They currently rank first in the percentage 
of women in Parliament. Women in the Democratic Republic of 
Congo are likewise being recognized for their central role in 
rebuilding, resettling, and opening dialogue.
    Last week, national, provincial, and tribal Afghan leaders 
gathered in Kabul for a peace jirga to outline a path forward 
for lasting stability in Afghanistan. The rocket attacks 
launched by insurgent Taliban members at the jirga underscore 
the dire need for a resolution with the Taliban, especially one 
that protects and promotes the rights and well-being of Afghan 
women and girls who suffered disproportionately under the 
Taliban's brutal rule.
    Of the approximately 1,500 Afghan leaders represented at 
the jirga, about 21 percent were women. This representation was 
hard won, yet not a single woman was among the five prominent 
speakers who addressed the jirga on its inaugural day, and all 
four members of the appointed leadership were men.
    Commenting on the involvement of women in brokering 
negotiations with the Taliban, Samira Hamidi, Director of the 
Afghan Women's Network, asserted ``we have not been approached 
by the government.'' Such realities lend legitimacy to claims 
that the level of women's participation was symbolic at best 
and certainly insufficient to present a voice for at least half 
of the Afghan population.
    As Secretary Clinton and others have rightfully articulated 
on several occasions, women's rights are human rights, and 
women's progress is human progress. The world simply cannot 
achieve lasting peace and prosperity if half of the population 
is not allowed or not able to participate fully. For real 
advancement in women's rights, we must take a comprehensive 
approach that combats all obstacles--physical, economic, 
sociocultural, psychological and otherwise--to women's 
equality; and for this to work we need women at the helm of 
policy formulation and decision-making.
    This administration has taken important steps to raise the 
profile of women's rights, including empowerment of women to 
engage politically in their societies. This is exemplified by 
the White House Council on Women and Girls and the Office of 
Global Women's Issues created last year which work to advance 
anti-discrimination laws and policies that have enabled more 
women to participate in political, civil judicial life, on 
gender equality, and mainstreaming of women's issues in 
government.
    Likewise, the U.N. has been a key force in pressing the 
international community to definitively adopt gender equality 
principles through various resolutions and now a new composite 
gender entity still in the final planning stages. In fact, this 
year marks the tenth anniversary of the adoption of the U.N. 
Security Council Resolution 1325 on women, peace, and security. 
The resolution stresses the important role of women in the 
prevention and resolution of conflicts and in peace building 
and urges increased representation and participation of women 
at all decision-making levels in national, regional, and 
international institutions that address conflict resolution 
management and prevention.
    Debate over the adequacy of women's involvement at the 
Afghan peace jirga reiterates both the significance and 
relevance of gender equality in the peace process. There is a 
renewed push for gender equality at all levels of policy and 
development strategy, and it is the job of Congress to conduct 
oversight of the U.S. and U.N. programs to contribute 
meaningful progress on these issues. We must take a serious 
look at our own foreign assistance contribution and ensure 
maximum effectiveness and transparency.
    Everyone benefits when women have equal rights and women 
have a voice in decision-making at all levels. When women are 
empowered to engage in the political process, governments are 
more effective and responsive to their people and nations are 
more stable, peaceful, and prosperous.
    I look forward to hearing the testimony today both from the 
administration and our private witnesses on the status of their 
efforts to enhance women's political participation, their 
analysis of the best practices for increasing levels and 
effectiveness and how to maximize U.S. assistance.
    I now want to recognize my colleague and ranking member, 
Representative Rohrabacher of California, for his opening 
statement.
    [The prepared statement of Mr. Carnahan 
follows:]<greek-l>Carnahan statement deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rohrabacher. Thank you very much, Mr. Chairman; and 
thank you for calling this very thoughtful hearing on an issue 
that needs to be discussed.
    Treatment of women is an unmistakable indicator of success 
or failure, of potential danger or a chance for success in 
terms of America's commitment to freedom in the world.
    Let me note that we have faced many challenges during my 20 
years in Congress, and quite often taking a look at what impact 
these issues were having directly on women throughout the world 
was an indicator of the significance of those issues. For 
example, during the 1990s, when the Taliban emerged in 
Afghanistan, I will just say that there were several of us who 
were constantly sounding the alarm bell about the Taliban. And 
I am sorry to say that our administration at that time, the 
Clinton administration, had had some kind of an agreement with 
Saudi Arabia, perhaps the Pakistanis as well; and there was 
some kind of covert support going on for the Taliban.
    Those of us who were concerned realized that the Taliban 
were the equivalent of the Nazis in terms of women's rights; 
and Carolyn Maloney, a Congresswoman from New York, and myself 
were very active in trying to raise that issue and specifically 
saying, look, this is what is happening. If this is the way the 
Taliban treats women, it is going to come back hard on the 
United States in many ways, not just to mention that our values 
are being undermined. And we didn't get very far.
    I think that if we had gotten more attention, and we did--
and Congresswoman Maloney actually went and tried to organize 
women's groups in the United States to help direct policy away 
from the Taliban. Had we been successful at that time, 9/11 
might not well have happened.
    But we do know that we cannot turn a blind eye to the type 
of monstrous discrimination and mistreatment of women 
throughout the world if we expect to move the world forward, 
and women need to play an active role in not only being the 
recipients of that but in charting the strategy of how to 
accomplish that goal.
    I would just like to say that we still face many challenges 
today. In the Muslim world, it is still very, very clear that 
women are discriminated against and that the United States 
needs to play a positive role in that direction. But not only--
the Muslim world is just the one that is the best example. 
Everybody likes to sort of pick on that because it is so 
blatant.
    But we have that type of discrimination going on and the 
horrible mistreatment of women in Africa where we know that the 
outbreaks of rape are ignored by their governments and just the 
brutal mistreatment of women. Even in Hispanic cultures we find 
residues left over from the machismo concepts where women were 
not expected to play a role in decision-making. In Japan, that 
type of cultural tradition still has its impact.
    So it is up to us and the United States. We are a microcosm 
of the good things and bad things about the whole world, so it 
is up to us to try to serve as an example and to try to lead 
the way.
    And, as you said, Mr. Chairman, our commitment to human 
rights--there is no commitment to human rights unless a large 
portion of that commitment is to the rights of women. Because, 
last time I noted, the human population was made up of at least 
half women, and so that counts.
    So I am very pleased today that you have called this 
hearing and have drawn our attention to this and to have an 
honest discussion of this and see what we can do and how each 
of us can play a role and especially how the role of women in 
our own country can be expanded in order to meet these 
challenges to freedom elsewhere.
    Thank you very much, Mr. Chairman.
    Mr. Carnahan. Thank you.
    Next, I want to recognize for an opening statement Mr. 
Delahunt of Massachusetts, who chaired this committee when I 
was vice chair. He taught me everything I know.
    Mr. Delahunt. And you have learned very well, Mr. Chairman.
    Mr. Carnahan. The gentleman from Massachusetts.
    Mr. Delahunt. Thank you, Mr. Chairman, and let me 
congratulate you on this hearing. We had a similar hearing when 
I did hold the gavel. I don't think we can have too frequent 
hearings on this issue, because we have to constantly remind 
ourselves and the rest of the world the importance of the role 
of women in terms of not just our national agenda but in terms 
of our international agenda.
    I know that you are aware and have supported the 
International Violence Against Women Act, which I am the lead 
sponsor on the Democratic side. We have made progress.
    My friend from California, Mr. Rohrabacher, indicated that 
we have to lead. Well, we have to remind ourselves, too, that 
we have a way to go. But the impressive strides that we have 
made have really been brought about because of the vanguard of 
women, with support from men, to break through old concepts and 
to advance the role of women not just in society but 
specifically in terms of political leadership.
    I came across a statistic that I guess I shouldn't be 
surprised at. But, as of mid-2009, women, even though they 
represent 50 percent of the world's population, occupy only 19 
percent of seats in national governments worldwide. That is a 
figure that has to be improved.
    And you know here in the United States Congress, what is 
the percentage of women that occupy congressional seats, 
whether they be in the House or in the Senate. So we all have 
work to do.
    But we have I think extraordinary leadership with the 
Ambassador and the Secretary with whom I have worked in the 
past and look forward to working in the future.
    And I would be remiss if I didn't acknowledge the former 
Ambassador to Austria who I consider a friend, Ambassador Hunt, 
who I know is part of the second panel. And, of course, the 
gentleman from NDI representing the rest of us here today.
    But this is a hearing that is important and that serves to 
remind us of how far we have to go. You know, as Mr. 
Rohrabacher indicated, in some countries, women endure extreme 
levels of violence, including systematic rape in times of war 
and harmful cultural practices, such as genital mutilation and 
forced child marriage. I remember an article about a 13-year-
old girl in Yemen who was married off to an older man and 
ultimately died from the injuries she sustained when he raped 
her. Last year, a 12-year-old child bride in the same country 
died while trying to give birth. You know, these anecdotes and 
these tragic examples really should be the only motivation we 
need to continue to change the course of the role of women in 
global society.
    And with that, I yield back.
    Mr. Carnahan. I thank the gentleman.
    I want to turn to our first panel, which we are thrilled to 
have with us today.
    I want to start with Ambassador-at-Large Melanne Verveer. 
She is the director of the Department of State's Office on 
Global Women's Issues, where the coordinates foreign policy 
issues and activities relating to the political, economic, and 
social advancement of women around the world. That is a big 
charge.
    Ms. Verveer. Yes, it is.
    Mr. Carnahan. She has mobilized support for women and 
girls' access to education and health care, to combat violence 
against women, and to ensure that women's rights are integrated 
with human rights in the development of U.S. foreign policy. 
She served as chair and co-CEO of Vital Voices Global 
Partnership, an organization she co-founded which invests in 
women leaders and seeks to expand women's political 
participation.
    Previously, she was chief assistant to then-First Lady 
Hillary Clinton in international activities to advance women's 
rights. She has also helped establish the President's 
Interagency Council on Women. She has a B.A. and M.A. from 
Georgetown University and is a member of the Council on Foreign 
Relations and the Women's Foreign Policy Group.
    Also on our first panel is Assistant Secretary of State 
Esther Brimmer. She is Assistant Secretary of State for 
International Organizations, leading the Bureau of 
International Organization Affairs, which strives to advance 
U.S. interests through international organizations in areas 
including human rights, peacekeeping, food security, 
humanitarian relief, and climate change.
    Previously, she was deputy director and director of 
research at the Center for Transatlantic Relations at the 
School of Advanced International Studies at Johns Hopkins, 
where she specialized in transatlantic political and security 
affairs. She has worked on E.U., Western Europe, U.N., and 
multilateral security issues and was a member of the U.S. 
delegation to the U.N. Commission on Human Rights in 2000.
    From 1993 to 1995, she served as special assistant to the 
Under Secretary of State for Political Affairs, where she 
worked on U.N., peacekeeping, human rights, and political-
military issues. She has a Ph.D. and master's in international 
relations from the University of Oxford and a B.A. in 
international relations from Pomona College.
    We have two fantastic witnesses today. We are going to 
start with Ambassador Verveer. We are going to ask you all to 
stick to our 5 minutes; and, hopefully, we will have some time 
for questions and then be able to move on to our next panel.
    Welcome.

STATEMENT OF THE HONORABLE MELANNE VERVEER, AMBASSADOR-AT-LARGE 
  FOR GLOBAL WOMEN'S ISSUES, OFFICE OF GLOBAL WOMEN'S ISSUES, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Verveer. Thank you, Chairman Carnahan, for your 
leadership on this issue and for convening this important 
hearing on a topic that is often overlooked and to Congressmen 
Delahunt and Rohrabacher for your very supportive comments. And 
welcome, Congresswoman Woolsey.
    I am honored to be here this afternoon to discuss the role 
of women in politics and civil society around the world and the 
United States' efforts to advance women's participation in the 
political lives of their societies and ask this my full 
testimony be placed in the record.
    While there have been positive developments in women's 
political participation, women are still vastly 
underrepresented globally. While women are half the population, 
as you said, Representative Rohrabacher, and I can't quarrel 
with you on that one, they certainly still hold less than one-
fifth of the positions in national governments. They are still 
significantly outnumbered in the chambers of parliaments, in 
provincial councils, and they are often missing from the 
negotiating tables where conflicts are to be resolved. All too 
often, important decisions that affect women and their families 
and their societies are made without their having even a voice.
    When women are discriminated against in the political 
arena, their experiences, talents, and perspectives are shut 
out of the policy decisions of our democracies and certainly 
for our prospects for a better world. Moreover, according to 
the World Bank, higher rates of female participation in 
government are associated with lower levels of corruption on 
the country level.
    I have been fortunate to see firsthand how women are making 
a difference in the political process at the local and national 
levels. Women's political participation, role in civil society, 
and government decision-making are key ingredients to building 
democracy. Democracy without the full participation of women is 
a contradiction in terms. It is a simple fact that no country 
can progress or prosper if half its citizens are left behind, 
and progress for women and progress for democracy go hand in 
hand.
    Today, investing in women is at the very heart of U.S. 
foreign policy. We know that women's participation is essential 
to addressing virtually every challenge we face as nations and 
as a community of nations.
    We are investing in policies and programs to grow women's 
leadership capacity in all areas of political participation, 
decision-making, and civil society. Women must not only be more 
engaged in governance but they must also be at the table in 
peace making, peace negotiations, and work on post-conflict 
reconstruction.
    We know that without the voices of women contributing to 
the delicate process of conflict resolution, peace is less 
likely to take root. U.S. support for quotas for women in 
Afghanistan and Iraq, which were chiseled into their 
constitutions, helped pave the way for women to enter politics 
and participate in policymaking in those countries at a 
critical time. The gains that have been made are precarious and 
must be nurtured and consolidated or women will risk seeing 
them erased or eroded.
    The United States has been extensively engaged in 
supporting women's political participation in Afghanistan, 
which my testimony details, and we are particularly focused on 
the role of women on the reintegration and reconciliation 
process as it goes forward. And as you have pointed out, Mr. 
Chairman, in the recently concluded peace jirga, the United 
States was involved in supporting the participation of women, 
supporting female jirga participants with the training and 
skills development necessary to assist them to be effective in 
their participation as well. But, as you also pointed out, the 
outcome has been less than satisfactory.
    As with Afghanistan, we remain deeply committed in Iraq as 
well.
    Women have key needs that we can go on to discuss in civil 
society, in governing, and in actively engaging the political 
process. My testimony details a number of programs our 
Government is engaged in from the Middle East to North Africa 
to USAID programs and beyond.
    I want to acknowledge the panel that follows me. The NDI, 
IRI, and the Institute for Inclusive Security have been 
important partners in this common cause; and we have worked 
with them extensively.
    Women everywhere continue to face challenges and barriers 
to productive participation and political engagement in 
government. In countries marred in conflict or cursed with 
poverty, the obstacles to overcome are even greater. 
Nevertheless, progress is occurring, although I believe at a 
pace that is far too slow; and, as a result, we are not 
adequately tapping one of the greatest resources we have for 
far more democratic, far more responsive, and far less corrupt 
governance around the world.
    [The prepared statement of Ms. Verveer 
follows:]<greek-l>Melanne Verveer deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Carnahan. Thank you very much.
    And now let's turn to Dr. Brimmer.

STATEMENT OF THE HONORABLE ESTHER BRIMMER, ASSISTANT SECRETARY, 
 BUREAU OF INTERNATIONAL ORGANIZATION AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ms. Brimmer. Chairman Carnahan, Ranking Member Rohrabacher, 
thank you for the invitation to testify today.
    I would like to submit my full testimony for the record and 
this afternoon will just provide a brief summary of my remarks 
for the subcommittee.
    It is an honor to appear before this subcommittee, and I am 
very pleased to be here with my colleague, Ambassador Verveer.
    The empowerment of women and gender equality globally is a 
top priority for the United States. Despite some progress over 
the past several decades, for far too many women and girls, for 
them, opportunity remains out of reach. Women still are the 
majority of the world's poor, the uneducated, the unhealthy, 
and the unfed.
    We believe to effectively address the empowerment of women 
and girls globally requires the cooperative efforts of the 
entire world. International organizations are key partners in 
this effort, serving to build widespread international support 
for integrated approaches to address challenges facing women 
and girls and setting norms and standards to help states meet 
them.
    The United States is working with the United Nations and 
the U.N. system, along with international partners, to address 
key issues impacting women and girls worldwide, including 
violence, political and economic empowerment, increasing access 
to health care to address maternal mortality and HIV/AIDS, and 
improving access to quality education.
    Given the multifaceted dimensions of these issues and their 
global scope, it is imperative that the United States and the 
international community strengthen the institutions and 
multilateral tools available to address them. The U.S. strongly 
supports consolidating the U.N.'s four existing gender-related 
institutions into a single women's agency, headed by an 
individual of under secretary general rank.
    Some of the primary goals for the new entity are to more 
effectively mainstream gender concerns, promote women's 
empowerment throughout the U.N. system, and to enhance the 
U.N.'s effectiveness and ability to better address issues that 
impact women on the ground globally. We envision that the new 
women's agency, among other things, would have expertise and 
perform analysis and research on issues such as gender 
equality, political participation, economic opportunities, 
violence, health, disabilities, gender aspects of peace 
negotiations, and discrimination against women.
    The Obama administration is also working multilaterally to 
address the disproportionate impact of armed conflict on women, 
the role of women in peacekeeping conflict resolution and peace 
building, and combating sexual and gender-based violence. We 
are committed to the implementation of a series of U.N. 
Security Council resolutions on these topics, including those 
we have taken leadership on, such as Resolutions 1325, 1820, 
1888, and 1889.
    The United States advances a zero tolerance policy for 
sexual violence against women and children in conflict. Last 
September, Secretary Clinton chaired a Security Council session 
and helped lead the unanimous adoption of the U.S.-sponsored 
Resolution 1888 to strengthen protection of civilians from 
sexual violence in conflict. The action-oriented resolution was 
a major achievement for this administration and, more 
importantly, for vulnerable women and girls globally, because 
it established a Special Representative of the Secretary 
General for Sexual Violence in Conflict, a position now held by 
Margot Wallstrom, and also established a team of experts to be 
deployed in conflict zones in order to strengthen the rule of 
law. We are pleased that Special Representative Wallstrom has 
begun her work by dealing immediately with the worsening 
situation in the Democratic Republic of Congo.
    This fall, we will mark the tenth anniversary of the U.N. 
Security Council Resolution 1325. This resolution was first 
adopted by the Security Council to focus on women's peace and 
security and address the impact of conflict on women and the 
contributions women can make to solidifying peace.
    Last October, through the unanimous adoption of Resolution 
1885, the Security Council reaffirmed Resolution 1325; and as 
we approach the 10-year anniversary we will continue to work 
toward Resolution 1325's implementation.
    Mr. Chairman, before closing, I will briefly touch on 
several related issues.
    I would like to reiterate the administration's strong 
support for the ratification of the Convention on the 
Elimination of all forms of Discrimination Against Women. 
Secretary Clinton and members of the administration have said 
that CEDAW is a priority. We also support working on the 
empowerment of women as part of dealing with the Millennium 
Development Goals and supporting work with the U.N. agencies to 
promote education. And, finally, we were very active at this 
March's session on the Commission on the Status of Women, and 
we sponsored resolutions on eliminating maternal mortality and 
morbidity through the empowerment of women. We have also 
cosponsored resolutions on women's economic empowerment and the 
gender composite entity that were adopted by consensus.
    Mr. Chairman, I will end there, but thank you for the 
opportunity to testify on this important issue; and I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Brimmer 
follows:]<greek-l>Esther Brimmer deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Carnahan. Thank you.
    Thank you both for your opening remarks. It was a great way 
to kick this conversation off today.
    Speaking of women in leadership, we have been joined by two 
colleagues, Congresswoman Woolsey from California and 
Congresswoman Moore of Wisconsin; and I want to recognize 
Congresswoman Woolsey to start off the questioning.
    Ms. Woolsey. Thank you very much, Mr. Chairman.
    As one of the founders of Women's History Month that came 
from Sonoma County, California, you can know that I take this 
cause of women's issues internationally very, very seriously. 
And Secretary Clinton I am so proud has repeatedly said that 
women's rights are human rights. She is exactly right. Any 
development, economic, or humanitarian program that does not 
consider the role of gender is setting itself up for failure; 
and any country that doesn't take interest in what happens with 
the women will not take steps forward.
    We have proven that already. Even in the United States, 
women have a long way to go on equal representation. In our own 
Government, only 74 of the 435 Members of the House are women, 
more than when I was elected in 1992, that is for sure, but not 
enough. So I look forward, actually, to the time when women 
will have an equal voice in government at home and abroad.
    I thank you for holding this hearing and letting me be part 
of it.
    For nine Congresses in a row, I have introduced for the 
United States to ratify the Convention on the Elimination of 
All Forms of Discrimination, CEDAW, even going into Secretary 
Helms' committee when he was the chair and being told to sit 
down and act like a lady. So, you know, this is important to 
me.
    And now that we have our wonderful Secretary and the two of 
you, we have Bill Clinton--Barack Obama in the White House--
Bill Clinton did pass the ratification forward--and we need to 
do this. What is holding it up? Can you tell me? I mean, it is 
the Senate. It is not the House. The House has 132 Members 
signed on to the letter to the Senate saying, get on with it.
    Ambassador Verveer. Yes, Congresswoman. And you are right, 
and you have been steadfast. And it is probably the single most 
frequently asked question I get all around the world, 
everyplace I go, why has the United States not ratified the 
Convention Against the Elimination of Discrimination Against 
Women? Because we are in league with a few other rogue states 
that haven't done so.
    And while it is true that there are countries who have 
ratified it and yet don't do the best in terms of recognizing 
the rights of women in their countries, and what is significant 
about that ratification is that women in those countries are 
using the ratification of CEDAW in their countries as leverage 
with their governments in making progress along the way.
    So we have it as a priority, as Assistant Secretary Brimmer 
said. We have been working with many across civil society in 
the United States who are supporting it. There is a list of 
treaties and other business before the Senate Foreign Relations 
Committee and the Senate in general, but that is where the 
question has to be lodged.
    Ms. Woolsey. Thank you.
    Dr. Brimmer, do you want to say any more about this?
    Ms. Brimmer. I would just also concur with my colleague, 
Ambassador Verveer, that similarly I also find the question 
frequently asked in multilateral fora because I think the world 
notes that the United States is re-engaging and working in 
multilateral fora and working toward a world of rule of law and 
that the importance of treaties is an important component of 
that. And indeed CEDAW is a priority for us and we are working 
very hard and we very much want to work toward the advice and 
consent of the Senate to that particular treaty.
    Ms. Woolsey. Thank you very much.
    Very quickly, before my time is up, it is very important to 
me that we emphasize maternal mortality. I don't want to take 
money away from AIDS or any of the other successful programs 
that we have from the United Nations and from the United 
States, but we do need to dedicate more funds to maternal 
mortality. Is there a way?
    Ambassador Verveer. Well, Congresswoman, again, much in 
agreement with what you said, one of the singular global 
initiatives of the administration is the Global Health 
Initiative. It is particularly focused on reducing the rate of 
maternal mortality. We have just seen the first study in many, 
many years that show, in fact, this is not an intractable 
problem. We can make a difference. The Lancet Study. And the 
hope is that now, with additional resources put toward it, the 
G-8--Canada is taking the lead in the major initiative in the 
G-8. The United Nations is focused on maternal and child health 
in a significant way in light of the anniversary of the 
Millennium Development Goals with the United States, with other 
partners. Gates just announced a $1.5 billion commitment. 
Hopefully, this is the time to once and for all begin to do 
something about this terrible problem which wracks much of the 
world. Women should not be dying every 2 minutes in childbirth.
    Ms. Woolsey. Thank you.
    Mr. Carnahan. Thank you.
    Next, I want to recognize our ranking member, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Ambassador Verveer, let me just note that I am pondering 
your observation that where there is women participation, there 
is less corruption. I haven't heard that analysis before, and I 
am going to keep that in mind as I am developing my world view. 
So thank you for sharing that with us today.
    I will just note that I think that we have made progress in 
the United States, great progress in the United States. I just 
note, as a Republican from California, we nominated two women 
to be our gubernatorial and senatorial candidates yesterday, 
and I don't think that would have happened 20 years ago.
    Also, let me note that in the surfing contests that I pay 
particular attention to in California that there never was a 
women's part of the surfing competition 20 years ago, and now 
women are playing a very active role in my sport, in surfing. 
They are out there.
    So these are big steps forward and meaningful things, and 
they are basic changes in our society.
    I have got a serious question to ask you both, because it 
deals with the decisions that we have to make. I could ask you 
about whether or not we have to prioritize. We are going 
bankrupt, and we have to prioritize our spending. I don't have 
any problem with trying to make sure money that is being 
expended for particular diseases are expended in a way that 
women are not shortchanged, because they are susceptible to 
certain diseases and certain medical problems like with 
childbirth that men are not. I don't have any problem with that 
prioritization of that spending.
    But let's get down to an issue today that I would like your 
advice on. We have to determine what we are going to do in 
Afghanistan. It is still a huge issue. In my whole life, in the 
last 30 years, Afghanistan has been there. We have to determine 
whether or not we are going to continue to try to be a presence 
and a force in that society at great cost to our society both 
in lives and treasure or we are going to perhaps try our best 
to do something so that we can walk away but yet they will not 
be a threat to us. But if we do walk away in that way, what we 
will be doing is suggesting that the Pashtun culture, which 
dominates a large chunk of Afghanistan, will remain intact.
    Much of our efforts in Afghanistan were aimed at changing 
the Pashtun culture and their relationship with women. The 
Taliban are part of the Pashtun culture. Not all Pashtuns are 
Taliban, but almost all Taliban are Pashtuns.
    So what is your advice to us? What is your advice? Should 
we fight it out in Afghanistan until that perhaps culture and 
their treatment of women, which is unacceptable by any of the 
democratic standards that we believe in, should we stay there 
and fight to change that? Or should we say, look, we cannot 
change the world, and we are going to cut our losses and get 
out just so long as they don't become a threat to everybody 
else? That is the question.
    Ambassador Verveer. Well, Congressman, obviously these are 
decisions that are going to be made above my pay grade. But let 
me just concur with what you said at the outset, which is how 
the treatment of women is often an indicator of danger or 
perhaps greater danger. And where women are much oppressed in 
our world, those are among the most dangerous places not just 
for the women in those societies but increasingly for our own 
country.
    I think, you know, the investment that has been made that 
you have talked about being a voice for in the 1990s, I worked 
for somebody in those years who was then the First Lady who was 
joining you and being in being that voice, talking about the 
oppression of the Taliban to women there. If you talk to women 
of Afghanistan, they will tell you, this is not how it always 
was. This may be part of the culture, but there were times in 
the 1950s and the 1960s and other times when they remember well 
how it was. They remember how they grew up.
    Mr. Rohrabacher. King Zahir Shah, who I supported during 
all of this time period, I wanted to bring him back. It was his 
wife that led the way to casting off the burkas in Kabul, et 
cetera.
    But let's not kid ourselves. This repression of women is 
part of the Pashtun culture; and we will have to stay there and 
fight if we are going to make that our goal, to change that. 
Advice on that?
    Ambassador Verveer. I would say that we have to continue to 
support human rights in the ways that we will choose to do 
that, obviously. But what happens to the women of Afghanistan 
is a predictor of what will happen, as you so eloquently said, 
in the future.
    Ms. Brimmer. Ranking Member Rohrabacher, if I may add some 
additional thoughts to this portion of the conversation, I 
would also note that the United States is not alone, that the 
international community as a whole also supports the work in 
Afghanistan or recognizes the importance of long-term change in 
Afghanistan; and part of that is enhancing the role of women 
and girls.
    I would just note that there are many different ways of 
continuing to have international support for change in 
Afghanistan, and I will give you just one example. If you look 
at the work and the role of looking at education in 
Afghanistan, getting girls back into school has been absolutely 
crucial. And one of the things we actually work at with the 
United Nations system, particularly with UNICEF, is making sure 
that there are schools in rural areas and those schools make 
sure the girls go to school. And there are over 800 of these 
rural schools where girls are becoming part of the future. I 
think those are some of the things that can help in the long 
term in that country.
    Thank you.
    Mr. Carnahan. Thank you very much.
    I am going to recognize next in our order is the gentleman 
from Massachusetts, Mr. Delahunt.
    Mr. Delahunt. Yes, thank you.
    Let me just address this globally. I mean, much of what Mr. 
Rohrabacher said in terms of Afghanistan I think is the concern 
that many of us share, that if there should be a decision made 
to leave, what will happen to any progress that women have made 
in Afghanistan? I know that is a priority for me in terms of my 
own decision-making process as far as supporting the continued 
presence of--or not supporting the continued presence of 
American troops in Afghanistan.
    But putting that aside for a minute, I always make the 
observation in terms of speaking in terms of violence against 
women, while it is often characterized as a women's issue, that 
it is truly a male problem. What initiatives are happening 
globally in terms of our own foreign policy, in terms of the 
United Nations, in terms of other nations that prioritize this 
issue to influence men, boys? Is there any coherent effort to 
change attitudes that have been inculcated in men as a result 
of the societies in which they grow and develop?
    Ambassador Verveer. Congressman, let me just start, and 
then I know that the Assistant Secretary will join in.
    Going back to the concern about what happens if we leave 
Afghanistan, I think it buttresses what this discussion is 
about today, which is women's enhanced political participation 
and why it is so important in this reintegration reconciliation 
process what decisions are made to end this conflict, that they 
be parties to all of this so that the end to the conflict can 
come in a way where they aren't thrown under the bus, so to 
speak, and there are better prospects for the future based on 
all the other kinds of investments that have been made, social 
and otherwise.
    Violence against women, as no one knows better than you 
because of all the efforts you have certainly put into IVAWA, 
is a global scourge; and we have to do better at engaging men 
and boys in dealing with the problem. The women in Afghanistan, 
for example, talk about the fact that this issue needs to be 
part of the education process. There are not just more girls 
going to school for the first time--we are up near 40 percent 
now--but certainly large numbers of boys. This needs to be 
integrated into what they are hearing.
    And we have been working with religious leaders, because 
the context of that society is heavily Islamic, and having the 
mullahs and the imams take these messages and put them into 
their Friday services and be influential in that respect makes 
an enormous difference.
    Similarly, we have been funding programs to use men at the 
village level, even where people are illiterate, to do skits 
that do demonstrate why this is not behavior that should be 
involved in, that men should define themselves by or be engaged 
in.
    One of the most significant ways to deal with this problem 
is obviously to prosecute it. It is a crime. It is not 
cultural. Laws have to be enforced, and we have to make sure 
there are systems that are based more on impunity than a system 
of justice that we can ensure that those changes occur. And 
that is something that we are working on, for example, in the 
DRC.
    So we do need a full range of these tools. There is 
increased focus on the role of men, religious leaders, other 
influential leaders on this problem; and I think that is a lot 
of the way we need to go if we are going to have a different 
outcome than we see today.
    Ms. Brimmer. Just to pick up on two particular themes from 
this conversation, Congressman Delahunt, I would like to just 
note particularly that our series of resolutions passed at the 
Security Council have tried to stress the importance of dealing 
with violence against women as a challenge to international 
peace and security and, hence, the importance of Resolution 
1880 and the follow-up to that.
    But, again, as you mentioned, it is extremely important 
that all of society--men and women, girls and boys--address 
this problem and that we try to bring this idea to many aspects 
of our diplomatic engagement, raising the importance for men 
and boys also to be part of the solution.
    Most recently, at CSW in March, we actually sponsored a 
session as the United States--actually in cooperation with 
France--on the role of men and boys in promoting gender 
equality; and we think this is a theme that we should continue 
to raise because all of human society needs to be part of this 
solution.
    Thank you.
    Mr. Carnahan. Thank you.
    Next, I want to recognize Congresswoman Moore from 
Wisconsin for 5 minutes.
    Ms. Moore. Thank you, Mr. Chairman, for the privilege to 
sit here with the subcommittee of the Foreign Affairs 
Committee; and I would just like to say to the Ambassador hello 
again. I think we have spent a couple of hours today with the 
distinguished panel and also with a couple of Afghan women, 
talking about many of these issues that we are talking about 
this afternoon. So I really appreciate your diligence. And nice 
to meet you, too, Dr. Brimmer.
    If it is appropriate, I would like to shift the 
conversation a little bit to Haiti, if that would be okay. I 
had the opportunity--the challenge, actually--to be with the 
House Democracy Partnership on the absolute last day of their 
democratically elected mandate. Literally the entire House of 
Representatives met with us. Their last session was to meet 
with us, and two-thirds of the Senate was meeting on their very 
last day. And we had one woman senator say in tears, we are 
hungry, we are homeless, we are facing the hurricanes, we have 
limited potable water, but the worst thing is that we are 
losing our democracy.
    And there was a great deal of assurances, reassurances 
around the table that the United States would be there to try 
to help them get polling lists together, to try to make sure 
that we help them to get an election going by November and to 
certainly try to avoid an interim government in the case of the 
President whose term was extended again because of the 
situation that is in Haiti.
    What are we doing, if anything, about trying to empower 
women to participate in the elections, to field candidacies and 
to focus on that since we know that women's political 
involvement is crucial?
    Ms. Brimmer. Good afternoon, Congresswoman Moore. If I may 
begin to respond to your question; and I expect my colleague, 
the Ambassador, will also join in. I will take a moment to talk 
about our work in Haiti indeed leading up to the elections.
    As you know, responding to the devastating crisis in Haiti 
is a major foreign policy issue for the United States. We are 
by far and away the largest official donor and private donor. 
The outpouring of private support is also incredibly 
significant, and it is part of a long-term commitment to 
addressing the challenges the people of Haiti face. We also 
note particularly the support of the larger donor community as 
well toward dealing with the challenges in Haiti.
    Indeed, we are coming up to a crucial period with the 
elections at the end of November, and there are several ways 
that we are trying to help support the people of Haiti and 
particularly women of Haiti in playing a role in those 
elections and taking the next step on their path toward 
restoring democracy. That indeed if we look at the elections 
that the mechanisms we are using as international support for 
the elections in Haiti include our work with the United Nations 
operations there. There is a peacekeeping operation there, 
MINUSTAH, which actually is a part of the United Nations system 
there which will help with the elections.
    The United Nations has extensive experience in helping 
organize elections and in particular has taken on the 
responsibility of actually using the MINUSTAH forces to get the 
ballot boxes around the country--physically move them to get 
them around the country and to help ensure that there are clear 
voter rolls.
    The Special Representative of the Secretary General will 
lead the U.N. effort there to work on Haiti. Just a few weeks 
ago, I was in Port-au-Prince to see the operation, to sit down 
with him and talk about what the U.N. will be doing to support 
those elections. We think it is important that the elections 
are held in a safe and secure environment, and we have 
supported increased police for the operation to make sure those 
elections are conducted safely.
    We also note the cooperation between the United Nations, 
CARICOM, and the United States to help also get voter rolls and 
help voters get to the polls and help active participation by 
women in the process.
    Ms. Moore. Thank you, Dr. Brimmer.
    Just a few more seconds. My time is expiring.
    One of the things that I have noticed is that there is 
really no strong public education system in Haiti. And, of 
course, women suffer from the dearth of education; and I wonder 
if there is any thought about spawning some sort of universal 
or public education support for that in Haiti, particularly 
focusing on women.
    Ambassador Verveer. You know, Congresswoman, in addition to 
what Assistant Secretary Brimmer said, there is so much focus 
and we are in constant touch with many of the women 
particularly in civil society in Haiti. On the emergency 
situation that still exists, they are desperate to be fully 
included in the reconstruction process for income generation 
and for being part of the economic rebuilding. So there has 
been a lot of focus on that as well as the protection from 
violence, which is continuing to be a serious problem. And we 
have been dealing with the United Nations and others who are in 
a position to ensure that the women are not going to be harmed 
as electricity is still a problem and their proximity to so 
many potential problems for abuse are. And those are the two 
things they raised with us.
    We are also working to ensure that we can rebuild even with 
the fact that the population is so disrupted and displaced, a 
way to ensure that the children continue to get their 
education. And that moves forward and that is definitely in 
process. So we can get a status report on where that is for you 
and get it to you soon.
    Ms. Moore. Thank you.
    I yield back.
    Mr. Carnahan. Thank you. We gave you a little extra.
    Ms. Moore. Thank you so much for your generosity, sir.
    Mr. Carnahan. Mr. Ellison, you are recognized for 5 
minutes.
    Mr. Ellison. Thank you Mr. Chairman; and thank you for 
having this very important hearing today.
    My question has to do with women as peacekeepers and, you 
know, people who preserve the law. You know, in places like the 
DRC and in other post-conflict areas or current conflict areas, 
does the engagement of women as part of the instrumentality of 
peacekeeping have a beneficial effect? Is this being tried in a 
significant concerted way? Can you speak to this?
    Ambassador Verveer. Well, Congressman, it is not just does 
it have a beneficial effect. It is absolutely essential. And 
there was a Security Council Resolution. There is an existing 
one. It is called, in the jargon, 1325, but it recognized that 
when it comes to peace and security women have an absolutely 
intrinsic, critical role they have to play.
    And as the chairman said in his opening statement, we saw 
it in Northern Ireland, we saw it in El Salvador, Guatemala, 
Rwanda, and so many places in between that when women aren't 
part of that process that goes forward to end a conflict, what 
we are working on now in Afghanistan, the way that future is 
determined will not have the critical issues on the table that 
will get resolved one way or the other, and then they will be 
part of the process to go forward. In fact, the peace will not, 
in all likelihood, take hold as was anticipated. So we are all 
working that much harder.
    I can't say that any of us have done the best job we could 
and must do to ensure that women are fully participating. It is 
what we are striving to do in Afghanistan. There is a whole lot 
of effort going on presently in the State Department working 
with DOD, working with USAID in an interagency process and how 
we can do this better and how we can articulate a significant 
number of activities that our post should be engaged in to 
further this so that the outcomes are precisely what you stated 
in your question.
    Ms. Brimmer. Good afternoon. If I may also note that we are 
even seeing women playing a larger role in formal peacekeeping 
operations as well. There are actually two countries that have 
all-female units that work on peacekeeping issues. One of them 
is in India, which pioneered the idea in 2007 of having a unit 
that focused--that was composed of women and that went to work 
on issues particularly dealing with sexual violence. And we 
noticed that that unit went to Liberia and actually inspired 
women in Liberia to join the national police force, and now 15 
percent of the police force in Liberia is actually female.
    And indeed, President Sirleaf Johnson as well as our 
ambassador there and the Special Representative of the 
Secretary General, all women, and actually led a campaign to 
focus on combating sexual violence in the country, again 
showing leadership in this issue.
    We now have a unit from Bangladesh that is also an all-
female unit that has just deployed to Haiti, particularly 
trying to help secure the refugee camps and particularly trying 
to deal with gender-based violence in the refugee camps, and we 
see that as a primary effort.
    And I would notice, I would actually like to credit our 
colleagues in the Defense Department as well that have also 
looked at this idea and have actually, for the first time, sent 
an all-female Marine unit to Afghanistan to work on some gender 
issues there. So it is an important idea of women as 
peacekeepers, even in our formal peacekeeping structures.
    Mr. Ellsworth. Thank you for that.
    Also, when women get into office and are elected officials 
in Afghanistan, Pakistan, anywhere, what sort of level of 
intimidation do they have to face that is specific to them 
being women? They could run into intimidation for any number of 
reasons. It could be party. It could be ethnicity. But as 
women, are we finding that when we succeed and women are in 
office, that they have a special burden to bear in terms of 
threats, hate crimes, things like that?
    Ambassador Verveer. Well, I think it is probably fair to 
say that there is a double standard or a different standard 
imposed on women in political office. And the two women here on 
the panel can probably underscore that. But it is particularly 
difficult in areas of conflict. And I think, in 2008, some 10 
lives alone were lost by women in the public domain in one kind 
of elective office or another to send a message to them. And 
these kinds of horrific messages are sent all too frequently. 
And whether it is voting when they are deemed that they 
shouldn't be voting, or when they are actually participating in 
the process when others deem for them that they have no part 
being in that business, these terrible messages are sent.
    So, yes, they are much more prone to be attacked in ways 
that I don't think any of us would take those kinds of personal 
risks that they do in the name of rebuilding their country and 
for the democratic principles they would like to see put in 
place. So we feel, I know we all do and certainly our programs 
try to certainly work at the security piece, and then also help 
them build capacity and find ways in which they can protect 
themselves more and ways that will make them less prone to this 
kind of violence.
    But I have talked to many women in the Afghan Parliament, 
for example, on the provincial councils. They will tell you 
hair-raising stories about what they endure every day, many of 
them going back to see their constituents, not knowing if they 
will get back to the capital ever again. There is a great price 
that is paid in the name of a better future and democratic 
governance, and I think we should keep that in mind always as 
we try to develop our programs and also help secure them as 
best we can in the effort that they are making.
    Mr. Carnahan. Thank you, Representative.
    Next, I will recognize Congresswoman Jackson Lee from 
Texas.
    Ms. Jackson Lee. Mr. Chairman thank you so very much.
    I am reminded of the opportunities that we have had to 
travel and to see these issues first-hand.
    And I thank you to the ranking member for joining the 
chairman in this important hearing.
    To both of the witnesses, Dr. Brimmer and Ambassador 
Verveer, thank you for your leadership.
    Let me try to bust out of the bag. Let me try to achieve 
some of the knockout punches of Mohammed Ali. I guess I am 
moved by the presence of a uniquely distinctive audience that 
is here, seemingly a large number of women. And I cannot 
imagine that they are here for the lack of interest in this 
topic.
    I am reminded of the Secretary of State's comments as First 
Lady in the 1990s, Ambassador, when she went to China and said 
that human rights is women's rights; women's rights is human 
rights. What a resounding large statement to be made around the 
world. And then, to paraphrase a statement, the person, the 
woman that rocks the cradle is the establisher of the 
civilization that we live in.
    And I believe, Mr. Chairman, if I could, in working with 
you, what should come out of this hearing is a demand, an 
absolute demand, an imperative demand, a declaration of an 
emergency that the international act dealing with--the 
international act of dealing with the violence against women 
should be passed, and it should be passed now. Because what I 
am gleaning from both the testimony and the recognition of how 
vast our task is, is that we are not going forward. We are 
working hard, but we are not going forward on some of these 
crucial issues dealing with violence against women. And let me 
recount and then pose a question.
    And all of the questions I came in, I heard Congresswoman 
Moore speaking about the need for broad-based education. And 
having been in Haiti--and that is just one example of going 
into developing nations where education is not accessible. 
Certainly Afghanistan.
    I do want to thank the Ambassador for holding the 
discussion at the State Department this morning, a snapshot of 
women in Afghanistan. And let me applaud you, apologize that I 
was testifying before a committee dealing with the BP oil spill 
and was not able to get there.
    But let me cite for you Sudan, for example, of course 
Darfur, which even today women are violated as they are living 
in camps still; even under the auspices of the peacekeepers and 
the mandates of the United Nations, women are violated.
    The women in Afghanistan, Ambassador, it is interesting 
that you recount that story. I heard that story almost 4, 5 
years ago meeting with Afghan parliamentarians really right 
after we had written the constitution and they were included. 
They came and they said--speaking to them in Kabul--they said, 
I am afraid to go back to my constituency. We know that girls 
are prevented from going to school even today, even as we try 
to use smart power to build schools.
    Camp Ashraf, an isolated place in Iraq that has Iranians, 
where the women are violated. Not only the women, of course, 
the whole community is under siege in Iraq. We have been 
begging and fighting for those individuals not to be violated, 
abused, intimidated, and treated in the way that they have been 
treated by the Iraqi Government.
    I would also say to you that I have in my possession a 
burqa, and I brought it back after some years because at the 
time I brought it back--and I do believe in choice in many 
ways. And some have chosen--some women have chosen to wear it. 
I am not sure the basis, but they say they have chosen.
    But when I brought it back, I brought it back to show what 
was not going to be anymore. I brought it back to say, look 
what we helped eliminate or to empower women. And we know that 
today, if we go to Kabul and other places, the burqa is being 
worn; some it is being demanded that they wear it.
    So my question is this: Tell me how important it is that we 
demand that the international act of--violence against women's 
act be passed now.
    Two, we have something in the faith called backsliding. 
What is the level of backsliding that is going on in these hot 
spots around the world, so to the extent that in--and might I 
compliment the administration overall. But to the extent that 
we have to gin up the activity of the United Nations, we have 
excellent leadership there, but you have a tough job at the 
United Nations. They don't get it. And while we are 
backsliding, people, women are dying. And I think we need to 
know in the United States, Congress, what the answers need to 
be on ginning up, moving, declaring this an emergency, passing 
that legislation now.
    Mr. Chairman, if you would indulge me for the answer. I 
thank you for your courtesies.
    Ambassador Verveer. This is a very serious problem. It is a 
global scourge. We have got to do better. I think one of the 
places where we did make progress over the last several years 
is in laws being passed in many countries to deal with setting 
out penalties and proclaiming once and for all that this was a 
violation of the law. It is criminal behavior; it isn't 
cultural behavior.
    Unfortunately, in too many places, these laws have not been 
implemented, and they are not enforced, and the system of 
justice is not responsive. So we need to build capacity within 
countries and need to do more to get greater political will to 
deal with these issues within the countries.
    For example, in Afghanistan, they have passed a very strong 
law now called elimination of violence against women. That law 
is sitting on the books. It needs to be implemented. It needs 
to be to taken seriously by the government. And the capacity of 
civil society needs to be built so that they can hold their 
government responsible and the processes of government are in 
place to enforce that law. Otherwise, these laws don't mean 
anything. And that is one of the problems we are dealing with 
as we look at honor killings and rape as a tool of war and 
domestic violence and great risk taken in political life, et 
cetera. So I think we clearly need to develop a more coherent 
strategy. And that covers every area, from political will to 
greater resources to civil society, to be able to make a dent.
    Now, we have tried to be responsive, and I am sure 
Assistant Secretary would like to talk more about the role that 
Secretary Clinton played after going to the DRC and seeing the 
array of problems that have been created there by the armed 
bands using rape as a tool of war, concerted tool, to further 
their goals, trying to get the representative who is now in 
place to deal with sexual violence against women, and an array 
of experts to start dealing with this at every level. But these 
processes are too slow. And I think one of the things in terms 
of our own leadership is what we can do, as we are all trying 
to do clearly, but it is not enough, to begin to have a greater 
impact.
    Mr. Carnahan. Thank you, Ambassador.
    And I am going to have to hold you at that, because we have 
been joined by another member we want to have time.
    Jan Schakowsky, representative from Illinois, who is also 
cochair of the Congressional Women's Caucus. I want to 
recognize her for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I appreciate your allowing me to speak for 5 minutes. I do 
have an opening statement that I would like to put into the 
record, and I will waive any questions now.
    Mr. Carnahan. Without objection.
    I had a few questions of my own, and hopefully we will have 
some time for Mr. Rohrabacher to do some follow-up as well.
    Let me start, Ambassador Verveer, with you. With regard to 
the focus the Obama administration has had and with Secretary 
Clinton, focusing on how we bring these women's issues to the 
table as one of the important tools of our foreign policy, I 
would like you to please talk about some of the ways, best 
practices. You have seen this work in a practical way, but also 
moving forward, how we can ensure sustainability in these 
practices? We have touched on that earlier, but I wanted to get 
you to elaborate some about that because I think that is going 
to be critical in areas like Afghanistan.
    Ambassador Verveer. Well, I think one of the most 
fundamental ways, Mr. Chairman, is to ensure that these are 
integrated throughout the work of the State Department. So that 
when it comes to women's political empowerment or economic 
empowerment or freedom from violence, that as the various 
offices and bureaus are working on their own agenda of issues, 
to really affix the women's lens, if you will, in terms of 
ensuring better outcomes on the very issues that they are 
working on.
    We are also in the process of a woman's strategy in terms 
of strategic and budget integration. And that is going forward, 
and we are hoping that that will put--putting that into place 
will create a more sustainable way to ensure that we get better 
outcomes across the board.
    There are areas that may not appear to be ways in which we 
might proceed but increasingly are making a difference. For 
example, as you know, there are a series of dialogues the U.S. 
has been and continues to be engaged in with other countries. 
We just concluded meetings on the United States-India dialogue. 
We had the United States-Afghan dialogue. This provides 
opportunities, because there is great political will today to 
put these women's issues on the agenda so that, as the leaders 
of countries come together, these are not marginalized issues 
or unspoken issues; they are right front and center on the 
agendas.
    With the Indian Government, for example, we were talking 
about the great success story that the Panchayat system in 
India where, because of a quota but now well beyond a quota, 
upwards of 40-50 percent of these village and municipal 
council-level elected positions are held by women. And there 
are empirical studies now that show a correlation between the 
outcomes of their performance and much greater the emphasis 
within those communities of benefits to the people and greater 
public resources coming in, not being siphoned off in ways that 
were previously siphoned off.
    There is an effort now with our coming together to take 
that experience and help build a capacity more broadly 
regionally, which would obviously be a contribution to 
enhancing the role of women's political participation at the 
local level.
    So both on the level of procedures within the Department, 
and then in terms of the kinds of programs we have been engaged 
in that need to be sustained, I would say it is not an either/
or, but a both/and for us to go forward.
    Mr. Carnahan. I had the pleasure to be with you about a 
month ago at a roundtable between Members of Congress and women 
from Afghanistan. They were here in leadership roles. And we 
saw firsthand, I think, some of the challenges that, even 
sitting in that room, pushback and uncertainty at best from 
some of their male colleagues in the government in terms of 
their involvement going forward. So I think these kind of 
strategies are going to be critical to our success.
    And Dr. Brimmer, I wanted to ask you if you would elaborate 
with regard to the consolidation efforts for a new gender 
entity at the U.N. I know those are in process as we speak, but 
how you think that coordination can better serve the efforts 
there at the U.N.
    Ms. Brimmer. Thank you, Mr. Chairman.
    Indeed, as you mentioned, we are currently in diplomatic 
negotiations to bring together several different parts of the 
United Nations to create one single new entity dealing with 
women's issues.
    We currently have four smaller entities that work on 
different aspects, whether it is research on women's issues or 
running conferences on women's issues, which is very important, 
but is currently separate from the larger organization, UNIFEM, 
which works on support for providing technical assistance to 
women around the globe. This effort would bring all those 
efforts together and would create one entity that would create 
a strong voice for dealing with gender issues and gender 
equality in the U.N. system. And indeed, it would be a tool to 
actually deal with one of the points that Congresswoman Jackson 
Lee mentioned in her question, which is, how do you deal with 
backsliding, how do you make sure to keep these issues on the 
agenda?
    The new entity would be able to work with the big 
departments in the U.N., Department of Peacekeeping Affairs, 
Department of Political Affairs, and others, to keep women's 
issues and gender equality on the agenda as an area for work in 
the U.N. system. So we think this is an important effort. We 
would hope to conclude diplomatic negotiations later this 
month.
    Mr. Carnahan. Thank you very much.
    Ambassador Verveer. And if I could add to that, Mr. 
Chairman, the other thing it would do is have a very 
significant leader at the right hand of the Secretary General 
to make sure these issues were not ignored.
    Mr. Carnahan. Thank you.
    I am going to recognize our ranking member again for 5 
minutes. I think we can sneak this in before votes.
    Mr. Rohrabacher. I would like to get back to the serious 
question that I asked before, because I honestly would like 
some advice, and frankly, I didn't get the answer that I asked 
for. I didn't get an answer from you on that.
    We are faced with a major decision now about what we are 
going to do in Afghanistan. The Pashtun culture is what we have 
been up against all along. Their culture is to treat women like 
cattle, basically, and owned by men. And everything that we see 
is wrong with the most radical of Islamic anti-female beliefs 
can be centered there in the Pashtun culture.
    Now, if we are going to--if we are committed, as long as we 
are there and we are part of the United Nations group, 
international group, I understand that we need to do that as 
long as we are there. Should we stay there and get that job 
done? Do we have that responsibility with the American military 
force to basically come in and insist on that change of 
culture? Because unless they change, that is what I believed 
all along, and if that was what, if the Taliban were dominated 
by the Pashtun culture, were going to dominate Afghanistan, it 
is going to come back and hurt us. I believed that in the 
1990s. I don't believe we can ignore that type of violation 
now.
    But what do you say? Should we be staying there and using 
our military might to obliterate that aspect of the Pashtun 
culture?
    Ms. Brimmer. I would simply say that the long-term work in 
Afghanistan will require strong support from the United States 
and the international community in many forms. As I mentioned 
earlier, that the work, both the civilian and military and 
nongovernmental activities, are all important to helping the 
Afghans move forward in their own society, and that we as an 
international community will have to be part of that.
    Mr. Rohrabacher. Long term.
    Let me give you a short-term thing then. What is being 
floated right now is, should we be making a compromise with the 
Taliban, letting the Taliban into the Afghan Government, so 
that we can make our exit a little bit sooner with a little 
less bloodshed? What do you say to that? But, of course, the 
deal that is being made is going to be done at the expense of 
women's rights.
    Ambassador Verveer. Well, and what the women are saying is, 
we are not against deals. We are not against bringing an end to 
the crisis. We are not against bringing those into power who 
may have been on the other side, as has happened all over the 
world as conflicts are ended.
    But we want to make sure that we are part of the terms of--
of the negotiated terms to end that conflict. So this is 
something in the end, as capacity is built and people are 
engaged in the processes, that they have a fair chance to work 
it out.
    Mr. Rohrabacher. So, not putting words in your mouth then, 
making sure that that is part of the agreement, we should not 
make an agreement that does not leave a recognition of the 
rights of women in Afghanistan--we should not leave that 
country absent of an agreement that guarantees those rights as 
we see the rights of women, not as the Pashtuns see the rights 
of women.
    Ambassador Verveer. Congressman, I will repeat what our 
leaders have said, which is that, as these discussions and 
agreements and negotiations and processes go forward, that 
there are three points that are uppermost in terms of 
determining the outcome: And that is that there is no deal with 
al Qaeda; there is no deal for the violence to continue with 
those people; and the constitutional rights have to be 
respected.
    Mr. Rohrabacher. So the answer is, yes, we shouldn't leave 
without that. All right. I mean, I am just trying to get a yes 
or no out of you out of you on a very easy decision that we--it 
is not an easy decision, but an easy way to delineate there is 
a decision to be made, and it is a tough decision.
    Would you like to add something to that, Doctor?
    Ms. Brimmer. I would join my colleague, Ambassador Verveer, 
in saying that understanding those main conditions that are 
part of the situation in Afghanistan I think will be crucial 
for any decision that would have to be made.
    Mr. Rohrabacher. Let me just note that I don't know the 
answer, either. I am not--I literally was seeking your advice 
on this, because I am not trying to push either point of view 
on that. It really, when I see our people being blown apart 
there and our young people separated, families being destroyed, 
and men and women coming home with missing legs and/or their 
parents, mother or father, dead in Afghanistan; it is a 
horrible price our people are paying there. And yet, at the 
same time, I understand that if we would leave at a certain 
point, all these rights that we talk about, our commitment to 
human freedom and the importance of women's rights within that 
concept, would not be well served. So it is a big decision-
making where we are placing our values.
    Thank you very much, Mr. Chairman. And I will ponder what 
we have learned today.
    Mr. Carnahan. Thank you very much.
    Thank you all for being here. We are going to thank our 
first panel.
    And in the interest of time, I would like to introduce our 
second panel before we break for votes, so that when we come 
back after we have four votes, we can come back and jump right 
into questions for our second panel.
    Thank you all.
    If we could have our second panel come up to the witness 
table, I would like to do some quick introductions.
    I am going to start the introductions with Mr. Ken Wollack. 
He is the president of the National Democratic Institute, 
better known as NDI. He has worked there since 1986. He has 
been serving as president since 1993. He is also a member of 
the Advisory Committee on Voluntary Foreign Aid and is chairman 
of the board of directors for the U.S. Committee for UNDP. 
Prior to working with NDI, Mr. Wollack co-edited the Middle 
East policy survey. He also worked regularly on foreign affairs 
for the LA Times. He has been actively involved in foreign 
affairs journalism and politics since 1972 and is a frequent 
person to be here on Capitol Hill testifying on foreign affairs 
issues.
    He is a graduate of Earlham College and is a senior fellow 
at UCLA's School of Public Affairs.
    Welcome.
    Next, we have Ambassador Swanee Hunt. She is chair of the 
Institution for Inclusive Security. The Honorable Swanee Hunt 
is former Ambassador to Austria, current president of Hunt 
Alternatives Fund. She chairs the Institute for Inclusive 
Security, and founded the Women in Public Policy Program, a 
research center concerned with domestic and foreign policy at 
Harvard's Kennedy School of Government. Ambassador Hunt is also 
widely published on the role of women in conflict prevention 
and resolution. She holds a B.A. in philosophy, two master's 
degrees, and a doctorate in theology.
    Next, we have Judy Van Rest, executive vice president of 
the International Republican Institute, or IRI, a position she 
has held since August 2004. She serves on the board of the U.S. 
Institute of Peace and the Women's Campaign School at Yale 
University. From April 2003 to July 2004, she served as senior 
adviser for governance for the Coalition Provisional Authority 
in Baghdad, where she conducted outreach programs for Iraqi 
women to assist them in participating in the democratic 
development of their country, and served as the CPA's director 
for the Office of Democratic Initiatives, coordinating programs 
ranging from civic education to women's leadership training. 
Previously, she served as regional director for the 
Commonwealth of Independent States Programs for IRI, one of the 
core initiatives of the National Endowment for Democracy, where 
she directed nonpartisan democracy building programs in former 
Soviet countries. She has held a variety of management 
positions, including at USAID, and is deputy to the Special 
Assistant to the President for White House Intergovernmental 
Affairs. She graduated from the William Allen White School of 
Journalism at the University of Kansas.
    So, again, I want to welcome all of you. We look forward to 
hearing from you. We are going to take this short break, get in 
four votes, and we will be right back. Thank you very much for 
your patience.
    [Recess.]
    Mr. Carnahan. We are back. We will reconvene the 
Subcommittee on International Organizations, Human 
Rights<greek-l>, deg. and Oversight. Thank you for your 
patience.
    We have done our introductions, and I would like to really 
turn right away to recognizing Ken Wollack to kick off the 
second panel.
    Ken.

     STATEMENT OF MR. KENNETH WOLLACK, PRESIDENT, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Wollack. Thank you, Mr. Chairman.
    On behalf of the National Democratic Institute, I want to 
thank you very much for this opportunity to testify about 
programs that empower women around the world to engage more 
fully in the political process. I prepared a written statement 
which I will summarize here, and I hope my longer written 
statement can be submitted for the record.
    Mr. Carnahan. Without objection, so ordered.
    Mr. Wollack. NDI has been working with political and civic 
leaders for more than two decades to assist their efforts to 
increase the number and effectiveness of women in political 
life. We work in nearly 70 countries, and the vast majority of 
them have programs specifically tailored to women.
    As women's contributions toward a strong and vibrant 
society are increasingly well documented, there is also growing 
understanding of why women's meaningful participation is 
essential to building and sustaining democracy. Women's 
political participation results in tangible gains for 
democracy, including greater responsiveness to citizens' needs, 
increased cooperation across party and ethnic lines, and more 
sustainable peace. In other words, having more women in the 
political process helps democracies deliver. In places as 
diverse as Timor-Leste, Croatia, Morocco, Rwanda, and South 
Africa, an increase in the number of female lawmakers led to 
legislation related to antidiscrimination, domestic violence, 
family codes, inheritance, and child support and protection.
    Only 5 years after the women's suffrage movement achieved 
the rights of women to vote and run for office in Kuwait, 
newly-elected female legislators this year introduced new labor 
laws that would give working mothers mandatory nursing breaks 
and provide onsite child care for companies with more than 200 
employees.
    Despite these positive indicators and gains, considerable 
challenges remain to women's meaningful political 
participation. And while no ideal environment currently exists 
to jump-start the advancement of women's political leadership, 
there are certain conditions that make it easier.
    First, women must have reasonable access to positions of 
power. Second, transparency in political and legislative 
processes is critical. Third, citizens must be willing to 
accept new ideas about gender roles and society. And fourth, 
women's access to economic resources is essential to breaking 
down the barriers to women's active participation.
    And then there are those very difficult places, such as in 
Afghanistan, where women, as you said, Mr. Chairman, continue 
to be disproportionately affected by the legacy of the brutal 
Taliban regime, and in Burma, where the oppression of and 
violence against women are well documented.
    Quotas, whether mandatory, legislative, or voluntary, 
continue to be the most effective means for increasing the 
number of women both in political parties and elective office. 
But studies conducted by NDI also indicated that quotas in and 
of themselves have not overcome the many obstacles that women 
confront, including developing the political will even to 
meaningfully implement quotas.
    There are, in our view, three key components necessary in 
initiatives to empower women: Build confidence, capacity, and 
connections. Recently, the Institute conducted an assessment to 
better understand effective approaches to encouraging women's 
political participation across regions and to measure the 
impact of such programs. The research concluded that the best 
practices include: One, conducting ongoing communications 
training; two, focusing on building leadership skills; three, 
uniting women across political party lines, both inside and 
outside the legislature; fourth, working with parties on 
internal reform; fifth, training women to train other women; 
sixth, developing the capacity and preparedness of elected 
women; seventh, exchanging information and expertise 
internationally; and, eight, engaging youth to help change 
sociopolitical attitudes and behavior.
    NDI's Win With Women global initiative, convened in 2003 by 
our chairman, Madeline Albright, has focused exclusively on 
strengthening women's roles in political parties which are, 
after all, the gateway to political power for women. Programs 
in Jordan and Afghanistan helped women gain their first seats 
in Parliament.
    In Afghanistan, we have trained most of the women 
candidates for national and provincial elections since 2004 and 
thousands of candidate poll watchers in all provinces of the 
country. And in Iraq, the national platform for women supported 
by NDI brought together women, political, and civic activists 
to advance the health care, education, employment, and 
political participation. After the elections now, the national 
platform will be a tool to hold legislators and parties who 
signed on to the platform accountable.
    An online resource that aids all of our goals is iKNOW 
Politics, an online workspace in English, French, Spanish, and 
Arabic available to all who are interested in advancing women 
in politics. The portal, which has averaged 1.5 million hits a 
month, is a joint project of NDI, the UNDP, UNIFEM, the 
Interparliamentary Union, and International IDEA.
    The international community, including donor aid agencies, 
intergovernmental bodies, international financial institutions, 
and nongovernmental organizations, have focused their attention 
on and dedicated growing resources to women's development. And 
with the creation of a new senior level position at the State 
Department, the Ambassador-At-Large for Global Women's Issues, 
the National Security Strategy, along with USAID and State 
Department funded programs, this administration has given 
concrete expression to new renewed efforts in this regard.
    How a country taps the talents and capacity of its women 
will, in large measure, determine its economic, social, and 
political process. It is our hope that new initiatives that 
focus on such issues as maternal and child health care, women, 
girls, and literacy programs, micro finance, particularly in 
Muslim-majority countries, are joined by comparable efforts to 
promote women's political participation and leadership. It is 
not an accident that the countries in which these issues are 
not part of the national agenda are places where women are 
denied a genuine political voice.
    Mr. Carnahan. Mr. Wollack, if you could just wrap up.
    Mr. Wollack. I would just conclude by saying, conversely, 
empowering women politically will help countries develop a 
democratic institution that can begin to successfully address 
issues related to security, jobs, human rights, physical well 
being, and human development.
    Thank you.
    [The prepared statement of Mr. Wollack 
follows:]<greek-l>Kenneth Wollack deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Carnahan. Thank you very much.
    And next, I want to quickly turn to our second witness, 
Ambassador Hunt.

 STATEMENT OF THE HONORABLE SWANEE HUNT, CHAIR, INSTITUTE FOR 
     INCLUSIVE SECURITY (FORMER U.S. AMBASSADOR TO AUSTRIA)

    Ambassador Hunt. Thank you so much. And I also would like 
to ask that my full testimony be submitted.
    Mr. Carnahan. Without objection.
    Ambassador Hunt. Thank you.
    I chair, as you know, the Institute for Inclusive Security, 
and we do a combination of research and training and advocacy 
with women in 40 conflict areas, and we have well over 1,000 
women in our network of women leaders.
    Mr. Chair, I appreciate very much the presence of the four 
Congresswomen who have been here, and I do want to make a 
comment that they are exquisitely aware that, as we talk about 
19 percent of the parliaments around the world being women--
women being 19 percent of those parliaments, that in the United 
States, at this last election, which was the great diversity 
election, women went from 16 percent to 17 percent. And so this 
is very much, do as we say, not as we do.
    Now, we have a growing body of research, of course, that is 
verifying that women's leadership does reap significant rewards 
for governance. And Ambassador Verveer was talking about women 
as untapped resources.
    I would like to focus, as Mr. Rohrabacher was, on 
Afghanistan, especially his question about culture. You know, 
should we go in there and try to change the culture? I would 
like to know what culture is. What I know is that, 40 years 
ago, this hearing would not have taken place. So, Mr. Chair, 
you are in fact changing this culture by holding this hearing. 
And I believe that we have a very important role to support 
those voices inside of the Afghan culture, the women in 
particular who are asking for support for their leadership.
    I have been many times to Afghanistan, including during the 
Taliban years, and have brought women leaders to NATO 
headquarters. We have trained foreign service officers, U.S. 
Marine Corps, how to connect with Afghan women.
    I want to particularly give as an example the Honorable 
Shukria Barakzai, a parliamentarian who put her life at risk to 
win her place in the Wolesi jirga, and she was part of creating 
that network that you were talking about earlier, that 
nonpartisan network. They have reached into the grassroots and 
included civil society in their work.
    And I particularly want to say that that is an example of 
how women broaden this idea of democracy to create more 
stability. And that is the kind of initiatives we can be 
supporting all around the world. She is not alone, obviously.
    Let me cede my time to Dr. Mishkat Al Moumin, the first 
Iraqi minister of the environment during the transition 
government. I would like to ask her to take my remaining 2 
minutes to speak about her experience.
    [The prepared statement of Ms. Hunt 
follows:]<greek-l>Swanee Hunt deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Carnahan. Please. You are recognized to do so. And 
welcome.
    Ms. Al Moumin. Thank you. Mr. Chairman, thank you for 
providing me with the opportunity to speak today.
    Achieving successful transition to peace in Iraq requires 
full participation of women in political life. As the minister 
of the environment in Iraq from 2004 to 2005, I immediately 
focused on providing services, especially safe drinking water, 
trash pick-up, and environmental education in unsecured cities, 
including Sadr City, Fallujah, Karbula, Nasria, and Basra. When 
these services came on line, civilian deaths decreased. When 
these services were shut down, civilian deaths increased. Had 
we focused on securing and ensuring these programs continued 
and expanded, I am convinced many Iraqi and American lives 
could have been spared, as well as a lot of money.
    As the minister of environment, I did not think I was 
dealing with security issues. To my mind, I was as far from 
dealing with security as I could be. However, providing clean 
water eroded al Qaeda base. I was undermining al Qaeda 
recruiting power. The weak, frustrated, isolated community was, 
above all, thirsty. These people were easily recruited only if 
they remained desperate.
    I paid a very high price for my effort. The most difficult 
moment in my life was when I held my 9-year-old son in my arms 
after surviving a bomb attack, not realizing he was alive. I 
also survived a suicide car bombing, during which four of my 
body guards were killed. Zarqawi, the leader of al Qaeda in 
Iraq, claimed full responsibility, and he called me the leader 
of the Infidel. He vowed that his arrow will not miss again.
    After surviving the attempt on my life, I went straight to 
the ministry. I worked as hard as I could. The ministry grew 
stronger. Communities I served honored me with their trust and 
appreciation. In April 2005, tribal leaders in the Iraqi 
Marshland approached me to train their women. After handing 
over the ministry, I founded Women and the Environment 
Organization, WATO, in Iraq, which is training rural women and 
children in southern Iraq to speak out when decisions are made. 
As a result, women's participation has increased sevenfold, and 
communities are now purifying water, improving hygiene. 
Moreover, the gender gap is being bridged organically, as 
communities are experiencing firsthand the positive results of 
listening to women.
    The same women are interested in community policing and 
other security-related matters. Sometimes the links are so 
clear, we don't notice. For example, women walk miles to 
collect water. During these walks, they see things men do not 
see. I am one of many Iraqi women and around the world who 
understand that security cannot be achieved through the mere 
use of force. We comprehend security must be achieved by 
attacking the root causes of instability. We have the 
expertise, the knowledge, the background to combat insecurity 
and terrorism, but our distinct perspective is not sufficiently 
reflected in decision-making, and we are not called on as much 
as we should be in seeking to restore stability and prosperity 
to war-torn society.
    Women's influence and insights must be leveraged to fight 
for stability in Iraq and elsewhere.
    Thank you.
    Mr. Carnahan. Thank you, Minister. And thank you so much 
for being here and for sharing your story and the work that you 
have done. Thank you.
    Last on our panel, I want to turn to Judy Van Rest.
    Welcome.

 STATEMENT OF MS. JUDY VAN REST, EXECUTIVE VICE PRESIDENT, THE 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Ms. Van Rest. Thank you very much.
    Thank you, Mr. Chairman, Ranking Member Rohrabacher.
    Thank you for inviting me to participate in this discussion 
today.
    I will summarize my prepared statement.
    I am pleased to participate in this discussion. It is a 
topic that is near and dear to IRI's heart. The International 
Republican Institute is a nonprofit, nonpartisan organization 
committed to advancing freedom and democracy worldwide.
    The evolution of IRI's work over the last few decades in 
many ways mirrors my own. The conventional wisdom was that it 
made more sense to include women and men together in trainings 
and not have specific programs for women. I came up in an era 
of Republican politics in which I felt strongly that being in a 
women's group would confine me to that niche, and I wanted a 
seat at the table with the men.
    However, my view changed completely after spending 14 
months in Baghdad as the Coalition Provisional Authority's 
point person for outreach to Iraqi women. Those Iraqi women 
taught me many things, but none as important as the need for 
programs that focus on giving women the skills to level the 
playing field in politics and in other fields important to 
their country's development.
    To be sure, women face far more obstacles to becoming fully 
participating partners, due to cultural and traditional 
attitudes, but they also lack the training and experience.
    In the international political realm, male party leaders 
control the political process and often do not want to include 
women candidates on party lists because they do not believe 
that women are capable of winning. Even quota systems, which 
have done much to increase women's participation in politics, 
cannot guarantee that the elected women will be effective 
legislators.
    Without the proper training and mentorship, women 
themselves do not feel confident to take on political roles. 
But when women are given the tools to campaign for office, when 
they are taught to be effective legislators, when they learn 
how to advocate for their rights and rights of others, in my 
experience, they become powerhouses for change.
    There is little doubt that women have made significant 
progress in the areas of health, education and business. There 
is also little doubt that women lag far behind men in politics. 
The World Economic Forum's 2009 Global Gender Gap Index reports 
that 134 countries, while closing gaps in health and education 
outcomes between men and women by more than 90 percent, have 
closed only 17 percent of the political outcomes gap.
    A 2010 study on women's economic growth by the U.S. Agency 
for International Development evidences that throughout the 
developing world, women are becoming ``vital economic players, 
representing a larger percentage of the workforce than ever 
before.'' Yet, despite these gains, women are not adequately 
represented in the decision-making process at any level of 
government.
    Still, with the recognition of the need for women's 
empowerment, along with training and mentorship programs such 
as IRI's Women's Democracy Network and the Arab Women's 
Leadership Institute, women are progressing and achieving much 
in the political field. More women are being elected to public 
office. Many more women leaders and members of civil society 
organizations are becoming politically involved by keeping 
their elected officials accountable and focusing on women's 
rights.
    Women in post-conflict societies are fearless in their 
pursuit of a better life for their family and communities. 
Afghan women are models of courageous women making a remarkable 
difference. In the lead up to the August 2009 elections, the 
Movement of Afghan Sisters (MAS), a 26,000 member, nonpartisan, 
nongovernmental organization, conducted numerous civic 
education events and helped mobilize 25,000 women to vote on 
election day. MAS was the only women's organization to 
successfully field candidates for provincial council seats, and 
27 of its supported candidates were elected, filling 23 percent 
of the 117 female quota seats allocated nationwide.
    Sadly, one of these brave women, Gul Maki Wakhali, a woman 
in her 20s, was recently slain by the Taliban.
    Women are also demonstrating that, once elected, they can 
become effective legislators. The Peruvian Women's Roundtable, 
a legislative women's caucus, is showing that its 31 members 
are effective political leaders and members of Peru's National 
Congress. U.S. Congresswoman Kay Granger and IRI board member 
was just in Lima, Peru, last week, where she learned firsthand 
how these women legislators are pushing for a new domestic 
violence bill.
    We have countless other success stories of women who, with 
the help of other nongovernmental organizations, such as IRI, 
the National Democratic Institute, and the Institute for 
Inclusive Security, have become effective agents of change in 
their societies. These examples should give us the hope and 
impetus to double our efforts to support women in democratic 
development.
    The United States has taken an important lead in this 
effort. Witness the work of women such as Secretary Hillary 
Clinton, Ambassador Melanne Verveer, First Lady Laura Bush, 
former Under Secretary of State Paula Dobriansky, and hundreds 
of other American women who are devoting their lives to advance 
women globally. We have seen an overwhelming demand for women's 
participation in all facets of the political process, and IRI 
is fully committed to helping women reach their full potential 
in politics and civil society. Thank you.
    [The prepared statement of Ms. Van Rest 
follows:]<greek-l>Judy Van Rest deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Carnahan. Thank you. And I guess I want to kick off the 
questions.
    You all were here for the first panel, and first of all, 
thanks to each of you for the important work that you and your 
NGOs have done for many years and your individual work. But I 
would like each of you to quickly evaluate current initiatives. 
We have heard about things the administration is doing now to 
try to really have the tool of empowerment of women as a more 
integral part of our foreign policy. We heard from initiatives 
at the U.N. to combine many of those organizations, again to 
have a more effective way to deal with that at U.N.
    I would like your quick evaluation of those current 
initiatives and a comment about, is there anything we are 
missing? Are there things that we need to be doing in addition 
to these things that you would like to highlight for us today? 
And we will go in reverse order on this round and start with 
Ms. Van Rest.
    Ms. Van Rest. Thank you. In evaluating these programs, I 
believe that a lot has been done by the United States to raise 
the awareness of the importance of women in all walks of life. 
And I think that increasingly throughout the world there is a 
momentum for this to happen.
    I do think that the programs that each and every one of the 
organizations are doing are having an impact, but I think that 
there has to be some understanding of how long it is going to 
take for women to reach these levels, attain political 
leadership and leadership in other walks of life, and to commit 
to a long-term plan to make sure that once they receive 
training, for example, that there is follow up, that there is a 
constant mentoring, because it cannot be just a one-off thing.
    So I think that while these organizations and the programs 
are having a great effect, there certainly is a much greater 
momentum now than there was 10, 15 years ago. I think a lot 
more emphasis should be put on the long term.
    Mr. Carnahan. Thank you.
    Ambassador Hunt.
    Ambassador Hunt. At issue here is the definition of 
security. And when we are out in the field, we hear repeatedly 
that security to these women includes--or isn't just about, you 
know, where are the borders, but rather, can my child go to 
school and back without getting raped? Is there water? Can I go 
to gather firewood without putting my life at risk from land 
mines, et cetera? And so we have to have a broader perspective 
on the meaning of security, and I would hope that the Congress 
would think in terms of what we are spending for each soldier 
that we are putting in Iraq. And to Mr. Rohrabacher's point 
earlier, if we want to bring home our troops, with the enormous 
cost of every single day of that war, the most effective means, 
the most effective strategy, in my opinion, would be to elevate 
the voices of these extraordinary women leaders there.
    And I have met with them. We have done training of hundreds 
and hundreds of these leaders. But how many are on the supreme 
court? Zero. With all the influence we have with the current 
government, there are zero women. And that is appointed by the 
President. Zero women on the supreme court, which sets the 
tone. And how many are ministers out of 27? Three.
    So we have allowed--Mr. Rohrabacher, you were talking about 
culture, and what is culture? Culture is the way that decisions 
are being made every nanosecond. And it changes constantly. And 
when we talk about what is Pashtun culture, who are you 
listening to? Who is defining that? Is it the Pashtun women, 
who, in fact, many of whom are leaders who are asking for this 
kind of training, who are asking for positions? Because we are 
not getting in there and supporting the elements of the culture 
that would allow us in fact to leave there.
    Mr. Carnahan. Mr. Wollack.
    Mr. Wollack. Thank you, Mr. Chairman.
    I believe that the architecture for assistance exists both 
within the United States and internationally. I also believe in 
this work, as I do in democracy and human rights work, 
pluralism is good. I don't believe in one source of assistance.
    People bring different strengths to the table when they 
provide assistance. And I think the international community has 
created an architecture and the United States Government in 
successive administrations have created an architecture to 
provide support for women.
    My argument would be, as we invest more in the economic 
health and education sphere for women, all extremely important, 
that we ensure that there are also resources to empower women 
politically. Because, ultimately, if these efforts are going to 
be sustained at the local level by the politicians and the 
governments in these countries, it is going to require a 
critical mass of women that will be in positions of political 
power, in political parties, in legislatures, and government.
    And there is, based on evidence, that you need almost a 
critical mass of about 30 percent of women in these political 
institutions that I believe will be able to help sustain these 
types of economic and educational and health programs that the 
international community is supporting.
    Mr. Carnahan. Thank you.
    I now want to recognize Mr. Rohrabacher for 5 minutes.
    Mr. Rohrabacher. Do you, the panel, do you think that Islam 
by its nature or by the fundamentals of the religious beliefs 
that are in the Koran is contrary to what our concept of equal 
rights for women would be?
    Ambassador Hunt. May I speak to that? I would love to speak 
to that because, as you may have heard during the introduction, 
I have a master's degree and a doctorate in theology. So I even 
know what backsliding means. I am from Dallas, Southern 
Baptist.
    And I think that if you go and you read the Old Testament 
of the Bible, it is horrible in terms of rights for women, 
human rights for women. So we can--any one of us can go in and 
choose this Scripture or that Scripture to make the point that 
the Koran is detrimental to women or that the Bible is.
    Mr. Rohrabacher. Well, it is the Old Testament, you said. 
Is the New Testament that way as well?
    Ambassador Hunt. Well, there are----
    Mr. Rohrabacher. Christians don't really say that the Old 
Testament counts as much as the New Testament.
    Ambassador Hunt. Well, I will tell you what. I cut my 
hair--I actually cut my hair myself. I cut my hair, and the 
Apostle Paul would have a very hard time with that. But he was 
speaking in terms of culture, as many of the Scriptures in the 
Old Testament and in the Koran were. But he would say it is a 
shame that I cut my hair. So we choose what verses we are going 
to emphasize.
    Mr. Rohrabacher. So you don't see that Islam is any 
different in terms of a threat to women's rights as an adamant 
enforcement of what people who are looking to those Holy 
Scriptures, either in the Koran or in the Bible, you don't see 
that as being more of a threat to women?
    Ambassador Hunt. No. I see fundamentalism as being a 
threat.
    Mr. Rohrabacher. No matter what kind of fundamentalism? 
Christians, Jews, Muslims. The fundamentalists of religion are 
the enemy of women. Is that it?
    Ambassador Hunt. To greater and lesser degrees, depending 
on the branch. Okay. As I say, I am from a fundamentalist 
background.
    Mr. Rohrabacher. I haven't studied this, so I am asking for 
information.
    Ambassador Hunt. I would say the more fundamentalist a 
group becomes in any of the religions that I have been a part 
of or studied, the more narrow the rights of women become. But 
my esteemed friend here, who is Iraqi, I would like to give her 
just a second to address this.
    Ms. Al Moumin. Thank you. From a practical experience, 
women in the environment organization work among tribal 
communities in southern Iraq. The organization that I founded 
and my colleagues in Iraq work with it as well.
    We empower women to participate in the decision-making 
process on the village level, on the local level. The way we 
did it, we highlighted the prominent Muslim women who played a 
big deal role in decision-making. And I can name them.
    For example, Lady Hajja, she is known to be the mother of 
all Muslims--all Muslims, including men. They follow her steps 
every year and perform a pilgrimage in Mecca. However, no one 
highlighted that. No one highlighted that there is a great 
powerful Muslim woman, first of all, who everybody follows. So 
even men, they go to Hajj or pilgrimage every year knowing that 
they are following the steps of a woman.
    Mr. Rohrabacher. Look, again, I am really seeking 
information here. I am not really making a point. Because, 
after all, that is what the hearings are supposed to be for, I 
think, is to educate us a little bit. But, look, doesn't the 
Koran talk about men have a right to four wives, and it doesn't 
say that a wife has a right to four men. And I mean there is a 
fundamental difference there, is there not?
    Ms. Al Moumin. Not really.
    Ambassador Hunt. Mr. Rohrabacher, read Leviticus, read your 
Leviticus.
    Mr. Rohrabacher. Old Testament.
    Ambassador Hunt. Tonight pull out Leviticus.
    Mr. Rohrabacher. The one thing I do know is that there is a 
difference between--a lot of Christians don't believe what is 
in the Old Testament because they believe that when Christ came 
he amended all of that and made it different. So the New 
Testament is what Christians go by. I am not saying that is 
necessarily what I believe in, but that is my inkling of what 
people tell me about.
    Ambassador Hunt. Here is my concern. As soon as we start 
saying that the problem is Islam, we forget that the problem is 
those who are interpreting Islam in order to press a certain 
world view.
    Mr. Rohrabacher. Okay.
    Ambassador Hunt. And we let these guys off the hook who are 
doing this interpretation.
    Mr. Rohrabacher. I think it is fair to say that people who 
attack Islam and say that ``Islam is our enemy'' are different 
than people who say ``radical Islam is the enemy.'' Of course, 
there are some people who don't even want us to say radical 
Islam. They can't even get those words out of their mouth. But 
I would say that I----
    Let me put it this way. Mrs. Bhutto, who I knew quite well, 
was elected to be President of Pakistan, and that supposedly is 
a very strong Islamic country. So it would seem to me if she 
was elected that that would mean that there isn't something 
contrary with most Muslims that would be contrary to have a 
woman as their head of state, because they elected a woman to 
be their head of state.
    Now, of course, that is Pakistan and not Pashtunville or 
whatever it is there, the Pashtun territories up in the 
northwest part of the country.
    So, in terms of religion, that is the only thing I can 
identify now. In Buddhism and other religions, is there a 
differentiation between men and women as well?
    Ambassador Hunt. I think we are getting afield of talking 
about the issue here.
    If you look at the swath of where we have problems with 
terrorists across the world, you will find a correlation with 
terrorism and the suppression of women. All right? Now you can 
take a bad idea, like the extreme Islam, if you will, being 
used by terrorists, and you can try to fight a bad idea with 
machine guns, but you won't get very far because you keep 
inspiring the people with a bad idea because now they are 
victims, they are under attack. So what you do is fight a bad 
idea with a good idea, and you focus on the elevation of these 
women's voices, which is, de facto, a way of fighting 
terrorism.
    Mr. Rohrabacher. Well, I certainly buy onto that, Mr. 
Chairman. Certainly there is no doubt that something--if we can 
mobilize women by backing them up in a demand for rights in 
various parts of the world, I think that would make it a more 
peaceful world. I don't have any doubt about that. I don't 
necessarily think that that is going to be an easy task because 
there is going to be a cost related to that as well, which was 
the basis of my question before about how much we would expend 
in Afghanistan in order to make sure that what we would 
consider an evil force for repression of women doesn't dominate 
that area.
    But I buy onto what you are saying. That is absolutely 
right. If we support the rights of women, that would be a great 
way of bringing change to a society in a positive way that 
would make it less threatening to the rest of the world and 
certainly less threatening to half their population.
    Ambassador Hunt. So we will work together on that, right?
    Mr. Rohrabacher. Thank you. There you go.
    Mr. Carnahan. Thank you.
    I have one more set of questions for myself, and I will 
just make them very short and concise. But I would like each of 
you to comment about the kind of monitoring evaluation 
measurements out there that can help us in looking at some of 
these new initiatives, which I think we are all pleased to hear 
about here today. So that is number one.
    And, number two, in particular, you know, there are some 
examples of programs where we have done well with young boys 
and men in terms of educating them because I think that is--we 
obviously have to focus on women empowerment, but I think a 
piece of that strategy has to be focusing on young boys and men 
and how they are part of creating that environment.
    So let me start with you, Mr. Wollack.
    Mr. Wollack. The evaluation process I think is important in 
terms of the work that we do in all elements of democracy and 
human rights work. It is difficult oftentimes to quantify it, 
to put numbers to it, aside from the fact that the numbers of 
the people you train, the numbers of the people you work with. 
Much of it has to do with behavioral change. It is like 
describing a good movie or a good book. It is hard to do it 
through numbers. You have to use words.
    But I think there are a number of ways that you can 
evaluate these programs, particularly in the political sphere. 
The first is whether the behavior of the women that you are 
working with change over time, that they gain the self-
confidence so they can compete professionally, that they have 
the capacity to communicate effectively so their participation 
in the political process is not seen as remarkable by the 
population at large and by their male counterparts. So the 
evaluation process is one that looks at behavioral changes of 
people, whether they have the information and the tools that 
enable them to compete with their male counterparts.
    There are other factors that inhibit that competition, but 
we have seen in this work, because of international expertise, 
international support, and international solidarity and 
specific programs, that the behavior of people change.
    The second is more in the regulatory field, whether laws 
and processes change within political parties, within 
legislatures, and within government. Are resources being 
dedicated to women who are competing? Whether reforms that are 
taking place in parties allow real avenues for political 
leadership in political parties. That sometimes you can 
determine in the end by numbers because you can see a rise in 
the number of women at all levels of political parties.
    And then, ultimately, one has to look at whether--not only 
the numbers of women that get elected or women in 
legislatures--whether they can function within those 
legislative bodies and does the legislature provide for reforms 
in those institutions that allow for women to be effective 
lawmakers?
    So all of these things are ways that you can judge programs 
over a period of time. But, ultimately, it is going to be, I 
believe, a long-term, generational change. But you have to 
begin now, and you have to begin this work in an intensive way 
because the process is about change of behavior.
    Mr. Carnahan. And real quickly on the subject of men and 
boys.
    Mr. Wollack. Yes. Most of these institutions that we are 
dealing with are male-dominated institutions. But what we are 
seeing is the youth in these institutions, the youth do not 
have, in many cases, the same prejudices that their parents do 
or their grandparents do. So also enhancing youth engagement, 
both young men and young women, also changes the political 
dynamic as well. Because if more youth receive leadership 
training and avenues for leadership development, you are going 
to find it much easier for women to gain those positions as 
well.
    Mr. Carnahan. Thank you.
    Ambassador Hunt?
    Ambassador Hunt. I would like to take us to a different 
conflict, and that is Rwanda. I happen to be writing a book 
right now called Rwandan Women Rising where I am evaluating how 
it is that women came to be 56 percent of the Parliament in the 
Lower House. That is the first time in the history of the 
world. And on the Supreme Court, there are three out of the 
seven, including the Chief Justice, and on and on and on 
throughout.
    And the important thing is to ask the women themselves to 
evaluate. I have done more than 100 hours of interviews with 
these women, and they have come up with five different--I am 
not going to go through them--five different ways that they 
came to have that kind of influence. One of the ways, by the 
way, was their influence on the men and the boys. And, of 
course, the President, Paul Kagame, there is a whole strategy 
they used to not only get his ear but to get his action.
    But I will leave you with this image of my arrival at the 
Senate. I was told, well, there is the president of the Senate, 
this gentleman, this tall burly man. So I went up to say, hi, I 
am Swanee Hunt. And he said, oh, hello, I am the president of 
the Senate--Senator whatever--Mulgambuttu--and I am gender 
sensitive. It was part of his calling card, if you will. And 
that is how intrinsic to that whole culture this issue of 
gender sensitivity had become.
    Mr. Wollack. I should just add one thing, Mr. Chairman. The 
male politicians in Rwanda came to the conclusion that if women 
had been in political power in Rwanda, genocide would never 
have taken place; and that was a motivating factor for a lot of 
the male politicians in the country.
    Mr. Carnahan. Thank you.
    Ms. Van Rest.
    Ms. Van Rest. I would like to echo what both Ken and Swanee 
talked about with regards to measuring how effective our 
programs are and what the results are. And I think all our 
organizations pay very close attention to this because we are 
also looking for lessons learned. That will help us to refine 
the programs.
    We also understand that in doing these programs and 
measuring and evaluating what happens is that we still have to 
have this understanding that people are only going to take baby 
steps and that, once again, as I said earlier, is that there 
has to be a commitment to long-term planning and training to 
ensure women in their quest for leadership roles and wanting to 
become leaders in their society.
    With regards to young men and boys, one thing to consider 
is that once women become confident it is going to have sort of 
a domino effect with their sons and, also, there is a 
difference in the generations. In many countries we work in, 
the young men do not have the same view as their fathers. So we 
do emphasize in our training bringing together women and men. 
We don't just have programs focused on women, because we want 
to make the point that it is important for them to work 
together.
    Mr. Carnahan. I just want to give a special thanks to all 
of you for your time today. I apologize for the delay from the 
vote. And thank you for the work you do. We look forward to 
continuing to work with you on many of these challenges going 
forward.
    We will be adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                               
                               <greek-l>JK
                               H Brimmer 
                               Q's deg.__
                               
                               <greek-l>Al
                                Moumin 
                               Defense 
                               Concepts 
                               paper deg.
                               
                               <greek-l>Al
                                Moumin 
                               testimony deg.
                               
                               <greek-l>Mo
                               nica 
                               McWilliams deg.
                               
                               <greek-l>Re
                               p. 
                               Moore deg.                               
                               
                               <greek-l>Re
                               p. 
                               Schowski deg.
                                                              
                               <greek-l>Vi
                               saka 
                               Dharmadasm deg.
                               <greek-l>US
                               IP PB29 
                               
                               Afghan 
                               Peace 
                               Jirga deg.1                               
                               <greek-l>Na
                               tional 
                               Intel 
                               Council Dr 
                               2008-
                               31 deg.                             
                               
                               <greek-l>Wo
                               men in 
                               2025 deg.
                               
                               <greek-l>Ja
                               ckson Lee 
                               statement deg.
                               __________
                                                              
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
